Nos. 19-1257 & 19-1258
IN THE

Supreme Court of the United States
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS ARIZONA ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(g) and 33.1(h), I declare that the Brief
of Amicus Curiae Professor Nicholas Stephanopoulos In Support of Neither Party
contains 7,989 words, excluding parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 7th day of December
2020.
ecembeer 20
2
Jenna
J
enna A
A. Hudson
Counsel of Record
Mark A. Packman
Janet Sanchez
GILBERT LLP
700 Pennsylvania Avenue SE
Suite 400
Washington, DC 20003
(202) 772-3966
hudsonj@gilbertlegal.com

